                   2




        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Management Controls over Small
Business Opportunities at
Lawrence Livermore National
Laboratory




        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services


OAS-M-06-08                     August 2006
REPORT ON MANAGEMENT CONTROLS OVER SMALL BUSINESS
OPPORTUNITIES AT LAWRENCE LIVERMORE NATIONAL
LABORATORY

TABLE OF
CONTENTS


 Small Business Opportunities

 Details of Finding ....................................................................................…………………1

 Recommendations and Comments...........................................................…………………6


 Appendices

 1. Common Small Business Functions …………………………………………………. 7

 2. Prior Reports ......................................................................................…………………8

 3. Objective, Scope, and Methodology..................................................……………….. 9

 4. Management Comments ....................................................................………………..11
Small Business Opportunities


Laboratory Small     Lawrence Livermore National Laboratory (Laboratory) was not
Business Practices   identifying functions that could be subcontracted to small
                     businesses even though it was practicable and cost effective to do
                     so. Specifically, the Laboratory was performing functions that are
                     commonly performed by small businesses even though there were
                     local small businesses available to perform them. Additionally,
                     other Federal facilities with similar labor markets and/or
                     requirements were using small businesses to perform these
                     functions at equal to or reduced cost, thus making contracting with
                     small businesses practicable and cost effective. A recent
                     Department of Energy (Department) study also identified potential
                     areas for the Laboratory to increase its use of small businesses.

                     Laboratory employees were performing many functions that are
                     commonly performed by local small businesses. Small businesses
                     were available to the Laboratory to perform these functions, such
                     as custodial, landscaping, pest control, and medical services.
                     Specifically, the Federal Central Contractor Registration Database,
                     which lists qualified small businesses by function, identified small
                     businesses locally available to the Laboratory for 13 functions that
                     we judgmentally selected from a multi-site list of commonly
                     performed activities. (See Appendix 1 for a list of the functions).
                     For example, there were 26 custodial small business concerns
                     within 65 miles of the Laboratory.

                     Furthermore, other Federal facilities in the same labor markets
                     and/or with similar requirements as the Laboratory had
                     successfully contracted some of these functions to small business
                     concerns. As discussed below, an Air Force station, a National
                     Aeronautic Space Administration (NASA) research center, and the
                     Department's Stanford Linear Accelerator Center (SLAC), all
                     within 65 miles of the Laboratory, as well as the National Nuclear
                     Security Administration's (NNSA) Sandia National Laboratories-
                     California (Sandia), also located in Livermore, California, had
                     successfully subcontracted work at a reduced labor cost to small
                     businesses in the areas of custodial and landscaping and pest
                     control. Although these other Federal facilities did not have the
                     same medical requirements as the Laboratory, the Department's
                     Hanford Site in Washington State had successfully obtained such
                     services at reduced costs from a combined small/large business




Page 1                                                               Details of Finding
                                    entity. Similar small business medical support services companies
                                    were also available to the Laboratory. The following examples
                                    demonstrate that there were practical and cost-effective
                                    opportunities1 to use small businesses to perform functions
                                    currently performed by the Laboratory.

                                                                       Custodi a1

                                    Although the Laboratory and a large business concern performed
                                    custodial services at the Laboratory at a cost of $5.3 million each
                                    year, the other Federal facilities included in our review
                                    subcontracted this function to small businesses at reduced costs.
                                    For example:

                                                  An Air Force Station, located in Sunnyvale, California,
                                                  about 30 miles from the Laboratory, relied on a small
                                                  business to perform all facility maintenance functions.
                                                  The custodial base labor rates, excluding overhead
                                                  burden, paid under the Air Force small business
                                                  contract were approximately 33 percent less than the
                                                  base labor rates for Laboratory employees, representing
                                                  a potential savings of about $816.000 per year if the
                                                  Laboratory were to award a similar contract .2

                                                  A NASA research center, located about 37 miles from
                                                  the Laboratory, also relied on small business concerns
                                                  for custodial services. This facility relied on two small
                                                  business concerns for its custodial services. One was a
                                                  disabled veteran's small business and the other was a
                                                  small disadvantaged business. Both contracts paid the
                                                  same unionized labor rates that were about 27 percent
                                                  lower than the Laboratory employee rates. The
                                                  custodial small business contract terms at this facility
                                                  could save the Laboratory about $654,000 annually.'




I
  Although we could not generally obtain fully burdened labor costs for comparison purposes, it is likely that small
businesses overhead rates would be equal to or less than the Laboratory because of their smaller infrastructure,
benefits, and other support costs.
  W e could not compare fully burdened rates, because the Air Force Station considers overhead burdens to be
proprietary information. However, Air Force contracting personnel agreed to confidentially compare the fully
burdened Laboratory custodial labor rates with their fully burdened small business subcontract rates and verified that
they were significantly less.
  Like the Air FOI-ceStation, NASA would not provide burden rates for comparison purposes.



Page 2                                                                                         Details of Finding
                                               •   Sandia, located across the street from the Laboratory,
                                                   also used a small business1 to provide custodial
                                                   services. Sandia's small business contract labor rates
                                                   could save the Laboratory about $108,000 annually.

                                      Laboratory officials expressed concerns about using subcontracted
                                      custodians in secure areas; however, the Air Force site
                                      demonstrated that contracting custodial functions under similar
                                      security restrictions was possible, practicable, and cost effective.
                                      For example, the Air Force Station managed common and
                                      controlled resources for the Air Force Satellite Control Network,
                                      and like the Laboratory, had security restricted operations.

                                                             Landscaping & Pest Control

                                      Laboratory employees provided the vast majority of the
                                      landscaping and gardening services, including pest control, at a
                                      budget of about $1.9 million per year. However, all of the other
                                      Federal facilities included in our review subcontracted these
                                      functions to small businesses at labor rates equal to or less than
                                      those incurred by the Laboratory. For example:

                                          •    The SLAC, located about 65 miles from the Laboratory,
                                               used a firm fixed-price contract with a small business
                                               concern for its landscaping and pest control services.
                                               Using the terms of SLAC's small business contract, we
                                               estimated that the Laboratory could save up to $268,000
                                               per year. Our comparison used fully burdened costs.

                                          •    The NASA research center also relied on a small business
                                               concern for landscaping services. Due to strict contracting
                                               requirements, NASA was able to keep landscaping costs
                                               low. The landscaping small business contract terms at this
                                               facility could save the Laboratory about $700,000 annually.

                                          •    The Air Force Station also used a small business concern to
                                               perform its landscaping and pest control at a labor rate that
                                               was equal to the $24 per hour Laboratory landscaping
                                               employee labor rate. The Air Force stated that the
                                               Laboratory burden rate for landscaping could not be
                                               compared to their small business burden rates because the
                                               small business burden rates included additional costs such
                                               as supplies and protective clothing.

1
    The Sandia small business contractor was a small business when the contract was let, but is now a large business.



Page 3                                                                                         Details of Finding
                                    Laboratory managers expressed concern about using small
                                    businesses to provide services in this area. They stated that there
                                    are special requirements to ensure that the application of pest
                                    control chemicals do not impact biosciences research. However,
                                    proper contract development and management could ensure that a
                                    small business follows Laboratory procedures in the application of
                                    pest control chemicals, or exclude this activity from other
                                    subcontracted landscaping functions.

                                                                  Medical Services

                                    Medical support functions performed by the Laboratory also offer
                                    an opportunity to obtain small business services at reduced costs.
                                    Currently, 93 percent of the medical functions at the Laboratory
                                    are performed by its employees, including services such as
                                    physical examinations, beryllium disease testing, and
                                    psychological testing at a cost of $4.2 million annually.2 In
                                    contrast, the Department's Hanford Site, in Richland, Washington,
                                    which provides similar medical services to its employees,
                                    successfully converted this function from its management and
                                    operating contractor to a small/large business partnership at a
                                    savings of about $1 million per year. Both the Hanford small
                                    business contractor and another small business contractor in the
                                    Laboratory market area stated they were capable and willing to
                                    perform the tasks performed by the current Laboratory medical
                                    facility. Based on the cost savings at Hanford, we calculated that
                                    the Laboratory could potentially save $353,000 per year using a
                                    similar small business contracting method. This estimate excludes
                                    the cost of a research program at the Laboratory, which was
                                    identified as dissimilar in scope from the Hanford medical
                                    program.

                                    Laboratory managers also expressed concerns about
                                    subcontracting the occupational medicine function to a small
                                    business because of its importance to ensuring human reliability in
                                    sensitive areas such as safety and security. However, the Hanford
                                    Site has similar concerns and has demonstrated that a small
                                    business can be assigned to perform human reliability activities.




2
 There were no similar medical services performed at the other Federal facilities included in our review in
California.



Page 4                                                                                         Details of Finding
                                  Study Confirms Small Business Practicability
                       Prior to this audit, the Department's Office of Small and
                       Disadvantaged Business Utilization also identified functions, such
                       as occupational medicine, maintenance and operation of facilities,
                       and information resources management, that are small business
                       opportunities at the Laboratory. The office recommended further
                       study of these functions including a comparison with other Federal
                       agencies such as discussed above.

Lack of Management     Although the Laboratory contract requires it to award small
                       business subcontracts to the fullest extent consistent with efficient
                       contract performance, it did not establish and implement
                       management controls to identify small business opportunities for
                       functions performed by Laboratory employees. The Laboratory
                       had no organization at the institutional (laboratory-wide) level
                       tasked to identify such opportunities. Specifically, although the
                       Laboratory's procurement department looked for small business
                       opportunities within the current subcontract base, there was no
                       high-level institutional effort to identify small business
                       subcontracting opportunities within the internally performed
                       functions.

                       Furthermore, the NNSA's Livermore Site Office (Livermore) did
                       not ensure that the Laboratory was identifying small business
                       opportunities to the maximum extent practicable. As previously
                       noted, in its contract, the Laboratory agreed to award small
                       business subcontracts to the fullest extent consistent with efficient
                       contract performance. However, Livermore's annual evaluation of
                       the Laboratory was limited to the Laboratory meeting its small
                       business goals, which are based on total procurement dollars and
                       did not take into account internally performed functions that could
                       be subcontracted out to small businesses.

Missed Opportunities   The Laboratory could save about $461,000 to $1.9 million per year
                       for custodial, landscaping, and medical services if it maximized the
                       use of small business contracting opportunities. Further, NNSA
                       will miss opportunities to ensure that the President's Small
                       Business Agenda is implemented, if it does not ensure that
                       Livermore breaks out functions to contract with small businesses
                       to the maximum extent practicable.




Page 5                                                                   Details of Finding
RECOMMENDATIONS   We recommend that the Manager, Livermore Site Office:

                     1. Direct the Laboratory to perform analysis at the
                        institutional level to identify small business opportunities
                        in internally performed functions; and,

                     2. Establish management controls to ensure that the
                        Laboratory meets established contract requirements to
                        maximize small business contracting opportunities to the
                        greatest extent practicable.


MANAGEMENT        Management agreed with the recommendations and commented
COMMENTS          that the Site Office will direct the Laboratory to reestablish its
                  policy on "Master Make-or-Buy Plan". Once the plan is approved,
                  surveillance activities will be conducted to ensure that the
                  Laboratory has implemented an institutional process that identifies
                  cost-effective small business contracting opportunities to the
                  maximum extent practicable. Officials also commented that
                  NNSA will expand its complex-wide management controls to
                  include improved Site Specific Program Execution Plans and
                  Nationwide contracting mechanisms.

                  Additionally, NNSA requested that the report address studies the
                  Laboratory had performed on potential outsourcing of various
                  functions.

                  NNSA provided a number of changes to the report for clarity.
                  These comments have been incorporated into the body of the
                  report where appropriate. Management's response is included in
                  its entirety in Appendix 4.


AUDITOR           Management's comments are responsive to our recommendations.
COMMENTS
                  During the audit, we recognized that the Laboratory had performed
                  three outsourcing studies within the last five years, some of which
                  included benchmarks and comparisons to industry. However,
                  since none reached conclusions about the practicability of using
                  small businesses, they are not addressed in the body of this report.




Page 6                                        Recommendations and Comments
Appendix 1


                       COMMON SMALL BUSINESS FUNCTIONS


Listed below are the 13 Laboratory functions that we judgmentally selected from a multi-site list
of 96 commonly performed functions. In each of these functions, Laboratory employees were
performing the work, in full or a substantial portion of the workload, even though local small
businesses were available.

   •   Computer Help Desk

   •   Custodial

   •   Hazardous Waste

   •   Industrial Hygiene

   •   Landscaping & Pest Control

   •   Low Level Software

   •   Machine Shop & Fabrication

   •   Medical Services

   •   Payroll

   •   Plant Mail

   •   Shipping & Receiving

   •   Site Transportation (Taxi)

   •   Trash Removal




Page 7                                                    Common Small Business Functions
Appendix 2


                                       PRIOR REPORTS


Office of Inspector General Report

•   The Department's Management and Operating Contractor Make-or-Buy Program
    (DOE/IG-0460, February 2000). This audit found that three of four contractors reviewed had
    either not included all functions in their make-or-buy plans or had not scheduled cost-benefit
    analysis for many outsourcing candidates. A cost savings of $5.3 million was estimated if
    cost-benefit analyses were conducted. The report recommended that the Department of
    Energy (Department) develop guidance for evaluating and monitoring contractor functions
    and make-or-buy efforts.

Government Accountability Office Reports

•   DOE Contracting: Improved Program Management Could Help Achieve Small Business
    Goal (GAO-06-501, April 7, 2006). The Government Accountability Office found that the
    Department had some success in redirecting to small business portions of contracts to
    manage large Departmental facilities, as well as in securing additional small business prime
    contracting opportunities. However, the Department was unable to meet its small business
    prime contracting goal in four of the past five years because it had not defined the necessary
    concrete steps nor collected sufficient small business program information to achieve its
    prime contracting goal. The report also stated that other Federal agencies with missions
    similar to the Department periodically evaluated their programs and made changes intended
    to improve performance.

•   Department of Energy: Improved Oversight Could Better Ensure Opportunities for Small
    Business Subcontracting (GAO-05-459, May 2005). The report found that the Department's
    facility management contractors' small business subcontracting achievements were not useful
    for monitoring purposes because the reported data overstated subcontracting achievements in
    two ways. First, all of the contractor-reported data incorrectly excluded some large-business
    subcontracts, beyond what Federal reporting guidelines allowed. Second, even when all
    relevant subcontracts were included, the contractor-reported data could still overstate
    contractors' subcontracting achievements. Because a contractor could decide to subcontract
    only a small amount of its total Federal contract, the portion of subcontracted dollars going to
    small businesses could, by comparison, appear misleadingly large.




Page 8                                                                              Prior Reports
Appendix 3

OBJECTIVE      The objecLivc of our aud~Lwas to determ~newhether the
               Lawrence Li vermore National Laboratory had identified
               laboratory functions that could be subcontracted to small
               business concerns.


SCOPE          The audit was performed between December 2005 and June 3006.
               Audit work was primarily performed at the Department's
               Headquarters in Washington, D.C., and Lawrence Livermore
               National Laboratory in Livermore, California. Work was also
               performed with the U.S. Air Force and the National Aeronautic
               Space Administration (NASA) in Sunnyvale, California; Sandia
               National Laboratories in Livermore, California; and, the Stanford
               Linear Accelerator Center in Menlo Park, California. Auditors
               also contacted personnel at the Department's Hanford Site in
               Richland, 'Washington, and Savannah River Site in Aiken, South
               Carolina.


ME'THODOLOGY   To accomplish the audit objective, we:

                       Identified common small business functions;

                       Benchmarked laboratory functions performed by
                       Laboratory emplovees against other Federal facilities'
                       practices;

                      Analyzed key documents related to small business
                      utilization at the Laboratory and various Federal and
                      Departmental sites;

                      Interviewed key NNSA Headquarters, Departmental
                      Headquarters, Livermore Site Office, and Laboratory
                      personnel;

                      Examined prior Office of Inspector General and
                      Government Accountability Office reports; and,

                      Reviewed applicable Public Laws, other Departmental
                      guidance, related correspondence, and contracts.

               The audit was conducted in accordance with generally accepted
               Government auditing standards for performance audits and
               included tests of internal controls and compliance with laws and
               regulations to the extent necessary to satisfy the objective of the


Page 9                                      Objective, Scope and LAethodology
Appendix 3 (continued)

                    audit. Accordingly, we assessed the significant internal controls
                    and performance measures established under the Government
                    Performance and Results Act of 1993 and found that measures
                    specifically related to utilization of small business concerns had
                    been established for contracted out functions. Because our review
                    was limited, it would not necessarily have disclosed all internal
                    control deficiencies that may have existed at the time of our audit.
                    We determined that controls over computer-processed data were
                    not integral to meeting the objectives of our audit. We discussed
                    the finding with officials from the Livermore Site Office and the
                    Laboratory on July 19, 2006.




Page 10                                          Objective, Scope and Methodology
Appendix 4




Page 11      Management Comments
Appendix 4 (continued)




Page 12                  Management Comments
Appendix 4 (continued)




Page 13                  Management Comments
                                                                 IG Report No. OAS-M-06-08


                               CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:


1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.

Name                                              Date


Telephone                                         Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:


               U.S. Department of Energy Office of Inspector General Home Page
                                      http://www.ig.doe.gov


  Your comments would be appreciated and can be provided on the Customer Response Form.
